                   U.S. Department of Agriculture
                      Office of Inspector General




     Farm Service Agency
Controls Over Emergency Loans
Reductions for Duplicate Benefits




                           Audit Report 03601-13-SF
                                    December 2009
                                                U.S. Department of Agriculture
                                                 Office of Inspector General
                                                   Washington, D.C. 20250


DATE:                  December 15, 2009

REPLY TO
ATTN OF:               03601-13-SF

TO:                    Jonathan W. Coppess
                       Administrator
                       Farm Service Agency

ATTN:                  T. Mike McCann
                       Director
                       Operations Review and Analysis Staff

FROM:                  Robert W. Young /s/
                       Assistant Inspector General
                        for Audit

SUBJECT:               Controls Over Emergency Loans - Reductions for Duplicate Benefits


Summary
Many disaster aid programs may be available to producers after a disaster has been declared.
One such program is the Farm Service Agency’s (FSA) emergency loan program, which offers
producers temporary credit—up to the lesser of 100 percent of their losses or $500,000—to help
producers recover from production and physical losses resulting from a designated disaster. Due
to the Office of Inspector General’s (OIG) concerns about programs and areas within the Federal
Government that are at risk of providing duplicate benefits to disaster victims, we conducted a
nationwide audit of FSA’s controls over the emergency loan program. Our objectives were to
(1) evaluate FSA's controls to prevent emergency loan assistance from duplicating other disaster
assistance to producers, and (2) determine to what extent losses covered by emergency loans
were subsequently indemnified by other disaster assistance.

Generally, an emergency loan amount must be reduced by the amount of any other disaster
related compensation or insurance indemnities received or to be received by the applicant for the
disaster loss. 1 If additional disaster benefits are expected, but the amount is unknown, the
applicant must assign the benefits to FSA. However, programs enacted after loan approval are
not considered duplicative benefits and do not affect emergency loan calculations. 2




1
    FSA Handbook 3-FLP, Amend. 2, par. 165 C (4) (May 7, 2002).
2
    FSA Handbook 3-FLP (Rev.1) Amend. 1, par. 232 K (Dec. 31, 2007).

                                                                                                1
During fiscal years (FYs) 2005 and 2006, FSA funded $70 million in emergency loans
nationwide. Other Federal assistance available to the producers at the time of application
included, but was not limited to, crop insurance payments and FSA’s Noninsured Crop Disaster
Assistance Program (NAP). 3 In addition, in May 2007, the President signed into law the
2005 - 2007 Crop Disaster Program (CDP) for the same disasters as the emergency loans were
made. The signup period for the 2005-2007 CDP began October 15, 2007, and ended
February 27, 2009.

We reviewed emergency loan files, crop insurance files, and other FSA disaster assistance
records for 58 producers who received emergency loans totaling $7.7 million in three States for
FYs 2005 and 2006. Overall, we determined that FSA’s controls were adequate to prevent
FSA’s emergency loan assistance from duplicating other disaster assistance to producers. We
did note, however, that one of the material internal controls performed by FSA is not explicitly
prescribed in FSA’s directives. Specifically, FSA has not prescribed that its officials verify the
producers’ self-reported insurance claims and settlements and other compensation received or to
be received for losses incurred by the disaster. Nonetheless, in the States and counties we
visited, we found that FSA verified with relevant crop insurance companies the producers’ self-
reported Federal Crop Insurance Corporation settlements and verified with other FSA records the
producers’ self-reported FSA disaster program payments and benefits.

We did identify one case in which the applicant did not report to FSA a $14,780 NAP payment
received for the disaster loss, and FSA did not recognize the omission and consider the NAP
payment in the emergency loan calculations for the producer. However, the error/omission did
not affect the loan amount because the applicant requested an actual loan amount $25,680 less
than the FSA-calculated eligible amount.

In another case, although FSA had obtained evidence of all eight indemnity payments made to a
producer, FSA overlooked subtracting one of those payments from the producer’s total loss.
This resulted in the emergency loan being overfunded by $29,029. See Finding 1 and exhibit A.

Finally, we determined that, out of our 58 selected producers/loans, 40 producers who received
emergency loans totaling $6,237,996 were subsequently indemnified by 2005-2007 CDP
payments totaling $1,944,258 for the same losses upon which the emergency loan amounts were
calculated. (See exhibit B.) However, since the 2005-2007 CDP was enacted after loan approval,
FSA did not consider these CDP payments as duplicative. FSA did not apply the CDP payments
to any outstanding emergency loan balances.

Background
FSA’s emergency loan program offers temporary credit to help producers recover from
production and physical losses resulting from a designated disaster.4 The agency offers the loans
at a low interest rate for producers who are unable to obtain credit from a commercial source.
Producers may borrow up to the lesser of 100 percent of their losses or $500,000.

3
  NAP provides financial assistance to producers of noninsurable crops when low yields, loss of inventory, or prevented planting occur due to
natural disasters.
4
  The program is administered in accordance with Title 7, Code of Federal Regulations, part 764 (7 C.F.R. 764); FSA Handbook 3-FLP, “Direct
Loan Making;” agency notices; and various laws and statutes, including Title 7, United States Code, sec. 1961 (7 U.S.C. 1961), et seq.

                                                                                                                                                2
When producers apply for an emergency loan, FSA requires the producers declare on forms
FSA-1945-22, “Certification of Disaster Losses,” all assistance they received or expect to receive
for the disaster. After FSA receives the self-certification form, the handbook requires State and
county offices to subtract from the producer’s loss any other disaster related compensation or
insurance indemnities received or to be received by the applicant for the loss. 5

Additional federal disaster assistance may also be allocated for the affected areas. However,
these funds may not become available until after producers have received their emergency loans.
For the States we selected for our review, related disaster assistance came from crop insurance
indemnities and NAP payments. In 2007 and 2008, the producers also received CDP payments.

Objectives
The audit objectives were to (1) evaluate FSA's controls to prevent duplicative disaster assistance
to producers, and (2) determine to what extent emergency loans were subsequently indemnified
by other disaster assistance.

Scope and Methodology
During FYs 2005 and 2006, the universe of emergency loans was 1,046, totaling over
$70 million. (See exhibit C.) From the 10 States that had the greatest total loan amounts (see
table 2), we judgmentally selected North Dakota and Minnesota, because they had the greatest
numbers and amounts of emergency loans and were in the top ten with respect to related disaster
assistance (crop insurance indemnities and NAP payments). We additionally selected Texas
because it had the highest amount of related disaster assistance.

For both North Dakota and Minnesota, we chose the 2 counties with the most loans and
judgmentally selected for review the 39 largest loans totaling just over $6.2 million. In Texas,
we chose 8 counties based on proximity and selected 19 of 24 loans, totaling nearly $1.5 million.
Audit fieldwork was conducted from January 2007 through March 2007 at FSA’s national office,
at the Texas, Minnesota, and North Dakota State FSA offices; and at 12 FSA county offices in
those States. (See exhibit D.) We also did follow up work via the internet and telephone with
the 12 FSA county offices from September 2008 through January 2009, to collect and analyze
data related to any 2005-2007 CDP payments issued the producers for the same losses on which
the 58 sample loans were based.




5
    FSA Handbook 3-FLP Amend. 2, par. 165 C (4) (May 7, 2002).

                                                                                                 3
                     Table 1: Emergency Loans and Related Disaster Assistance – FYs 2005-2006


        Top 10 States
                                      No. of    Amounts of       Crop                          Total Crop
          Based on                                                               NAP
                                    Emergency   Emergency      Insurance                     Insurance and
       Emergency Loan                                                          Paymentsc
                                     Loansa       Loans       Indemnitiesb                   NAP Payments
          Amounts

       North Dakota                    172      $15,008,034    $352,657,356        $68,105    $352,725,461
       Minnesota                       117       $8,263,140    $146,690,075      $767,004     $147,457,079
       Louisiana                       59        $7,045,550      $25,545,000     $397,016       $25,942,016
       Florida                         49        $4,692,120    $545,035,557    $10,827,400    $555,862,957
       Michigan                        73        $4,477,470      $23,790,943    $1,591,020      $25,381,963
       Arkansas                        76        $4,297,308      $33,148,452    $5,285,319      $38,433,771
       New York                        56        $3,684,240      $14,810,247    $1,105,583      $15,915,830
       Texas                           52        $2,768,430    $604,456,419     $6,102,092    $610,558,511
       Wisconsin                       75        $2,606,978      $49,577,175     $483,018       $50,060,193
       California                      15        $2,139,550    $111,930,866     $2,380,321    $114,311,187
               TOTALS                  744      $54,982,820   $1,907,642,090   $29,006,878   $1,936,648,968
       a
           As of August 14, 2006.
       b
           As of October 2, 2006.
       c
           As of September 2006.


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

To accomplish our objectives, we performed the following procedures.

   •       We interviewed officials at FSA’s national, State and county offices to gather general
           information about emergency loan policies and procedures.

   •       We obtained the emergency loan and NAP databases from FSA and crop insurance data
           from the Risk Management Agency. We used Audit Command Language software, a
           data extraction and analysis tool, to compare the databases and identify all borrowers in
           our selected States who received both emergency loans and related disaster assistance for
           the same loss. We used this data as the basis for our sample selection of loans.

   •       We evaluated the internal control procedures and regulations to prevent duplicate disaster
           assistance by interviewing FSA officials and reviewing pertinent guidelines and
           handbooks. To test the accuracy of the electronic data provided by FSA, we reconciled
           the information to the corresponding loan documents.

   •       We contacted crop insurance providers to match the applicable claim/policy files for the
           selected emergency loans with the information in FSA’s files.




                                                                                                              4
       •    We compared crop insurance data from FSA’s producer files to the crop insurance data
            collected from the applicable insurance provider to ensure that the two sets of
            information were consistent.

       •    We obtained the NAP database for our scope years for all producers in our sample States
            to identify any producers who received money from both NAP and emergency loans.

       •    To determine if the loan amounts were correct, we compared the information obtained
            from the NAP and crop insurance databases to the sampled emergency loans to ensure the
            payments had been applied to the loans as required.

       •    To determine to what extent the selected emergency loans were subsequently indemnified
            by other disaster assistance, we reviewed FSA 2005-2007 CDP payments for the
            producers who had received the selected emergency disaster loans.

Finding 1: FSA Overfunded an Emergency Loan
In 1 of the 58 loans we reviewed, FSA did not subtract a crop insurance payment from the total
loss amount when it calculated a producer’s net loss. Although FSA had obtained evidence of all
eight indemnity payments made to the producer, it overlooked subtracting one of those payments
from the producer’s total loss. As a result, the emergency loan was overfunded by $29,029. (See
exhibit A.)

FSA’s handbook states that, when calculating production losses, the agency should “subtract any
other disaster related compensation or insurance indemnities received or to be received by the
applicant for the production loss. Disaster related compensation includes, but is not limited to:
crop insurance payments; Catastrophic Coverage; NAP; other FSA disaster program payments,
such as Emergency Feed Assistance Program, emergency conservation programs, and any other
special disaster program payments.” 6

We reviewed 58 loans in Minnesota, North Dakota, and Texas, and determined that FSA
generally had sufficient controls to prevent emergency loans from duplicating other disaster
assistance. When producers apply for an emergency loan, FSA requires the producers to declare
on form FSA-1945-22, “Certification of Disaster Losses,” all assistance they received or expect
to receive for the disaster.

In the States and counties we reviewed, after FSA received the self-certification from the
producers, it verified the information with the relevant crop insurance companies. The Proof of
Loss forms from the insurance companies were included in the producers’ files as well as the
NAP and crop disaster program payments. However, the handbook does not require the counties
to verify the self-certifications and, therefore, not all counties may be doing so. The Government
Accountability Office’s Standards for Internal Control in the Federal Government provides that
internal controls need to be clearly documented in management directives, administrative
policies, or operating manuals.


6
    FSA Handbook 3-FLP, Amend.2, par. 165 C (4) (May 7, 2002).

                                                                                                   5
In one loan we reviewed in Minnesota, a county office official did not subtract a crop insurance
payment from producer A’s total loss before making an emergency loan. The producer had crop
losses in 2005 totaling $284,963 that were caused by excessive rain. The county office
determined that because producer A received crop insurance proceeds in 2005 totaling $143,284,
he qualified for a maximum emergency loan of $141,680. Accordingly, the producer received a
$141,000 loan on June 28, 2006. During our review of the loan files, we determined that
although FSA had obtained evidence of all eight indemnity payments made to the producer, it
overlooked subtracting one of the payments for $29,708 from the producer’s total loss. When
this missed payment is applied to the loss amount, the eligible emergency loan amount would
have been $111,971 rather than $141,000. This resulted in the emergency loan being overfunded
by $29,029. Table 1 shows the calculation.

                                      Table 2: Calculation of Loan Amount


                     Calculation                       Per FSA        Per OIG      Difference
          Total Loss Amount                               $284,963     $284,963            $0
          Less: Insurance Proceeds                       ($143,284)   ($172,992)      $29,708
          Equals: Net Loss                                $141,679     $111,971       $29,708
          Eligible Loan Amount                            $141,680a    $111,971       $29,709
          Actual Loan Amount                              $141,000b    $111,971       $29,029
          a
              FSA rounds loan amounts to the nearest 10 dollars.
          b
              Producer chose to take less than he was eligible for.


When we discussed the missed crop insurance payment with both the supervisor and loan
manager at FSA’s county office, they explained that they overlooked the payment when
calculating the net loss even though documentation of the payment was in the file. County office
staff met with the producer who, according to FSA, paid back the overfunded amount in
February 2008.

   Recommendation 1

   Provide documentation that producer A repaid $29,029.

   FSA Response

   Documentation that Producer A repaid the $29,092, on February 6, 2008, was provided to
   OIG during the exit conference that was held on September 15, 2009.

   OIG Position

   We accept FSA’s management decision for this recommendation.

   Recommendation 2

   Revise FSA Handbook 3-FLP to require the FSA farm loan official, before issuing an
   emergency loan, to verify, through the FSA county executive director and the



                                                                                                6
     Comprehensive Information Management System (CIMS) 7 where available, the producer’s
     “other disaster related compensation or insurance indemnities received or to be received” for
     the loss.

     FSA Response

     The Farm Service Agency agrees with the recommendation. The revision to 3-FLP is in the
     clearance process and is expected to be finalized within 30 days.

     OIG Position

     We accept FSA’s management decision on this recommendation.

Conclusion
Your October 30, 2009, response to the draft report has been included at the end of this report.
We have accepted FSA’s management decision for all of the report’s recommendations.

We appreciate the assistance and cooperation of your staff during our review.




7
  Section 10706 of the Farm Security and Rural Investment Act of 2002 directed the Secretary of Agriculture to develop a comprehensive
information management system to be used in implementing the programs administered by Risk Management Agency (RMA) and FSA. Under
section 10706, all current RMA and FSA information is to be combined, reconciled, redefined, and reformatted in such a manner that the
agencies can use the information management system. Crop insurance policy summary information, including indemnity information, was added
to CIMS since May 2009. FSA State and county office employee access to CIMS is targeted for November or December 2009.

                                                                                                                                        7
Exhibit A: Summary of Monetary Results


 Finding   Recommendation
                                      Description              Amount        Category
   No.          No.

   1             1          A crop insurance payment was not   $29,029   Questioned Loans –
                            subtracted from the total loss               Recovery
                            amount when FSA calculated the               Recommended
                            net loss for one emergency loan.

TOTAL MONETARY RESULTS                                         $29,029




                                                                                              8
Exhibit B: Schedule of Losses, Loans, and Disaster Payments

                                    Related       Eligible                   2005-2007
      Sample   Total Production     Disaster       Loan        Actual Loan     CDP
       Case     Loss Amount        Assistancea    Amountb       Amount       Paymentsc
         1               $60,502        $26,003      $34,500       $34,500           $0
         2               $68,421        $13,385      $55,040       $55,000           $0
         3               $41,684        $11,680      $30,000       $30,000       $8,111
         4               $75,474        $27,219      $48,250       $48,250           $0
         5             $141,111         $47,678      $93,430       $93,430           $0
         6               $60,783        $56,057       $4,730        $4,730           $0
         7               $13,502         $1,534      $11,970       $11,970           $0
         8               $76,580             $0      $76,580       $76,580           $0
         9               $14,325             $0      $14,325       $12,780           $0
        10               $96,187             $0      $96,190       $96,190           $0
        11             $115,033              $0    $115,030       $115,030           $0
        12            $2,060,890      $209,812     $500,000       $300,000           $0
        13            $1,999,905      $187,446     $500,000       $268,584           $0
        14             $166,372         $60,860    $105,510       $105,000           $0
        15             $136,747         $22,711    $114,040        $34,460           $0
        16               $21,577         $7,698      $13,880       $13,880           $0
        17             $104,748          $8,106      $96,640       $14,520           $0
        18               $87,189        $51,510      $35,680       $35,680           $0
        19             $192,542         $16,861    $175,680       $150,000           $0
        20             $309,690       $147,645     $162,050       $162,050      $59,044
        21             $285,413         $96,084    $189,330       $189,330      $43,196
        22            $1,314,226      $568,614     $500,000       $500,000     $182,190
        23             $309,963         $89,317    $220,650       $220,650      $34,093
        24             $264,770         $91,126    $173,640       $171,500      $20,292
        25             $446,446       $239,953     $206,490       $206,490      $80,000
        26             $350,803       $187,967     $162,840       $162,840      $75,122
        27             $487,642       $241,753     $245,890       $170,000      $80,000
        28             $397,001       $235,540     $161,460       $161,460      $36,211
        29             $334,614       $106,320     $228,290       $228,290      $41,010
        30             $350,972       $146,904     $204,070       $204,070      $51,538
        31             $229,588         $52,378    $177,210       $165,790      $18,914
        32             $268,388       $100,207     $168,180       $168,180      $29,068
        33             $426,739       $272,066     $154,670       $154,670      $50,708
        34             $440,357       $169,101     $271,260       $271,260      $51,957
        35             $255,428       $120,914     $134,510       $134,510      $38,007
        36             $148,900         $22,896    $126,000       $126,000      $11,214
        37             $306,440       $168,394     $138,050       $138,046      $47,496
        38             $288,209       $116,574     $171,640       $171,630      $48,683
        39             $239,891       $114,708     $125,180       $125,180      $44,084


                                                                                          9
Exhibit B: Schedule of Losses, Loans, and Disaster Payments

                                                 Related               Eligible                            2005-2007
         Sample     Total Production             Disaster               Loan             Actual Loan         CDP
          Case       Loss Amount                Assistancea            Amountb            Amount           Paymentsc
           40               $284,963               $172,992             $111,970            $141,000           $59,977
           41               $444,298               $193,407             $250,890            $250,000           $64,588
           42               $283,965               $158,711             $125,250            $125,250           $60,960
           43               $266,836               $122,456             $144,380            $144,380           $47,407
           44               $329,776               $147,782             $181,990            $165,000           $42,836
           45               $238,588               $143,998               $94,590            $94,590           $51,670
           46               $354,326               $166,005             $188,320            $187,000           $67,555
           47               $235,174                 $88,872            $146,300            $120,000           $35,377
           48               $521,253               $344,205             $177,050            $177,000           $80,000
           49               $117,290                 $64,719              $52,570            $52,570           $23,184
           50                $96,416                 $41,357              $55,060            $53,940           $18,340
           51               $213,855               $139,918               $73,940            $73,940           $47,909
           52               $171,216               $113,406               $57,810            $57,810           $43,360
           53               $195,052               $125,122               $69,930            $69,930           $36,920
           54               $188,232                 $66,610            $121,620             $60,000           $16,344
           55               $280,115               $106,849             $173,270            $173,270           $42,986
           56               $324,183               $196,694             $127,490            $127,490           $67,356
           57               $436,461               $228,073             $208,390            $208,390           $65,726
           58               $136,740                 $42,251              $94,490            $94,490           $20,825
          Total          $18,107,791             $6,700,448            $8,486,195         $7,708,580        $1,944,258
     a
        Insurance indemnities, 2004 CDP, and NAP payments (reported by the producer)
     b
       (Total production loss amount minus other related Federal assistance) rounded to the nearest $10.
     c
       Related to the emergency loans (same loss) but enacted after loan approval.




                                                                                                                         10
Exhibit C: Emergency Loans by State for FYs 2005-2006

                        State        Loans   Loan Amount
                    North Dakota       172    $15,008,034
                    Minnesota          117     $8,263,140
                    Arkansas            76     $4,297,308
                    Wisconsin           75     $2,606,978
                    Michigan            73     $4,477,470
                    Louisiana           59     $7,045,550
                    New York            56     $3,684,240
                    Iowa                53     $1,981,505
                    Texas               52     $2,768,430
                    Florida             49     $4,692,120
                    Illinois            29     $1,428,750
                    Pennsylvania        28     $1,297,110
                    Georgia             26     $1,821,060
                    Hawaii              19       $112,590
                    California          15     $2,139,550
                    Oregon              13     $1,136,010
                    Mississippi         13       $778,660
                    Oklahoma            12       $539,160
                    North Carolina      11      $606,090
                    South Carolina       9       $871,780
                    Washington           8       $951,980
                    Nebraska             8       $297,510
                    South Dakota         8       $291,109
                    Missouri             7      $339,240
                    Ohio                 7       $282,250
                    Kentucky             7       $148,920
                    Kansas               6       $231,439
                    Tennessee            6      $173,115
                    New Jersey           5      $692,310
                    Maine                4      $188,800
                    Utah                 4        $98,510
                    West Virginia        4        $89,700
                    Virginia             3       $191,340
                    Colorado             3       $148,520
                    Massachusetts        2      $202,400
                    Alabama              2      $108,000
                    Nevada               1       $408,700
                    New Mexico           1       $200,000
                    Montana              1        $77,280
                    Connecticut          1        $49,000
                    New Hampshire        1        $40,000
                    TOTALS           1,046    $70,765,658


                                                            11
Exhibit D: Sites Visited and Emergency Loans Reviewed


                                 FSA County                 Total                                  Sample              Sample
           State                     Office                Number          Total Amount            Number              Amount
   Texas                      Swisher                         5                 $169,690              3                 $119,500
                              Terrya                          4                 $158,380              4                  $158,380
                              Wilbarger                       4                 $300,580              4                  $300,580
                              Hidalgo                         5                 $905,000              3                  $673,584
                              Starrb                          2                 $185,680              2                  $185,680
                              Jim Wells                       2                  $57,090              1                   $34,460
                              Nuecesc                         1                  $14,520              1                   $14,520
                              Live Oakd                       1                  $13,880              1                   $13,880
                              Subtotal                       24               $1,804,820             19                $1,500,584
   Minnesota                  Kittson                        33               $2,734,610             10                $1,529,400
                              West Marshall                  28               $1,989,290             10                 $971,830
                              Subtotal                       61               $4,723,900             20                $2,501,230
   North Dakota               Pembina                        41               $5,013,020             10                $2,172,610
                              Steele                         28               $2,682,274             9                 $1,534,156
                              Subtotal                       69               $7,695,294             19                $3,706,766
   Total                                                     154             $14,224,104             58                $7,708,580
   a
     Six loans were made. Four of the six loans were subsequently combined into two loans, resulting in a total of four loans for
   review.
   b
     Starr County farm loan programs are administered by staff in the Hidalgo County FSA office.
   c
     Nueces County farm loan programs are administered by staff in the Jim Wells County FSA office.
   d
     Two loans were made and subsequently combined into one loan.




                                                                                                                                    12
United States
Department of
Agriculture

Farm and Foreign     DATE:         October 30, 2009
Agricultural
Services
                     TO:           Director, Farm and Foreign Agricultural Programs
Farm Service
Agency                             Office of Inspector General
Operations Review
and Analysis Staff
                     FROM:         Philip Sharp, Chief
1400 Independence
Ave, SW                            Audits, Investigations, State and County Review Branch
Stop 0540
Washington, DC
20250-0540           SUBJECT:      Response to Audit 03601-13- SF, Controls Over Emergency Loans –
                                   Reductions for Duplicate Benefits


                     This is in response to your September 29 memorandum requesting additional information
                     to reach management decision for Recommendations 4 and 5 of the subject audit.

                     Recommendation 1

                     Documentation that Producer A repaid the $29,092, on February 6, 2008, was provided to
                     OIG during the exit conference that was held on September 15, 2009.

                     Recommendation 2

                     The Agency agrees with the recommendation and will make the appropriate revision to 3-
                     FLP.




                                                        USDA is an Equal Opportunity Employer
